  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Comparing Medicare Physician Payments
          To Private Payers




                      JANET REHNQUIST
                      Inspector General

                        JANUARY 2003
                        OEI-06-00-00570
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE SUMMARY


OBJECTIVE

          To compare Medicare relative values for physician services to similar values paid by private
          insurance companies, based upon MEDSTAT’s MarketScan® database.


BACKGROUND

          Accounting for over $40 billion each year, Medicare’s physician fee schedule contains more
          than 7,000 codes for reimbursable services. Each is assigned a relative value (RVU)
          composed of three factors– Physician Work, Practice Expense, and Professional Liability
          Insurance, designed to reflect the human and capital resources required for provision of the
          service. The RVU is multiplied by a constant dollar figure to obtain the fee schedule payment
          amount. The Secretary is required to review the RVUs for all physician services at least once
          every 5 years. To help meet this requirement, the American Medical Association’s Relative
          Value Updating Committee (RUC) reviews codes and provides recommendations regarding
          appropriate changes to the RVUs for consideration by the Centers for Medicare & Medicaid
          Services (CMS).

          This study uses proprietary claims data from MEDSTAT’s Marketscan® database to compare
          service valuation patterns between Medicare and private insurers. A data mining process
          identifies procedures that consistently appear to have moderate or extreme differences between
          the two groups. Possible reasons that differences may exist were investigated through
          interviews and literature reviews.


FINDINGS

Many procedure codes are not included in the current 5-year comprehensive
review; a systematic analysis may assist code identification

          The Secretary is required to review relative values for all physician services no less than every 5
          years to adjust for changes in medical practice or coding and to reflect new data on relative
          resources. In practice, this requirement means that all codes must be eligible for review.
          Decisions to include codes in the 5-year review are based on a nomination process. The data
          mining technique presented in this study provides an alternative source of information that could
          improve CMS’ ability to identify those codes most in need of review.

Comparing Medicare Physician
Payments to Private Payers                             i                               OEI-06-00-00570
<         Of the 681 Medicare services evaluated, 217 are valued differently from private payers

          Two-hundred seventeen procedures, 30 percent of those reviewed, were identified with
          consistent and substantial differences in relative value between Medicare and the MEDSTAT
          database. Ninety-eight procedures appear to be valued higher by Medicare; the remaining 119
          appear to be valued lower by Medicare. Reasons for these differences are unclear and may be
          attributable to errors within the RVU, to population differences, or to differing incentives to
          review codes.

<	        Only 20 of the 217 codes identified by our analysis were reviewed in the 5-year
          comprehensive review



CONCLUSION

Identification of procedures in need of review is almost exclusively based on outside nominations. The
process is limited in its ability to identify misvalued, particularly overvalued, procedures. We believe
that the current process could be improved by supplementing physician efforts with a data-driven
method, similar to that presented in this inspection.

Valuations that differ significantly between Medicare and the private industry may indicate that those
resources are not adequately or not efficiently reflected. However, further investigation of individual
differences must take into account any changes made since the analysis year (1999) and the difficulties
inherent to a comparison between Medicare and the private sector.




Comparing Medicare Physician
Payments to Private Payers                           ii                              OEI-06-00-00570
                               TABLE OF CONTENTS

                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDING

     Many Procedure Codes Are Not Included in the Current 5-Year Comprehensive

     Review; A Systematic Analysis May Assist Code Identification . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES
    A: Data description . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          B: Data cleaning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C: Data mining methods . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          D: Valuation differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29





Comparing Medicare Physician
Payments to Private Payers                                                                                      OEI-06-00-00570
                                  INTRODUCTION

OBJECTIVE

          To compare Medicare relative values for physician services to similar values paid by private
          insurance companies based on MEDSTAT’s MarketScan® database.


BACKGROUND

The Resource Based Relative Value System (RBRVS)

          Medicare’s current physician payment structure, the physician fee schedule, is based on a
          relative value system known as the Resource Based Relative Value System (RBRVS). The
          RBRVS assigns a value to services that can be provided by a physician under the Medicare
          program. The value, measured in relative value units (RVUs), compares each service relative
          to all other services. For example, one of the most common procedures, an office visit for an
          established patient, is currently valued as .93 RVUs while a more complex procedure, such as
          an artery bypass graft, is valued as 46.50 RVUs. This implies that the resources needed to
          perform the artery bypass graft (including physician training, time, office equipment, and liability
          insurance) are 50 times those needed for an office visit.

          Accounting for more than $40 billion each year, the physician fee schedule contains more than
          7,000 codes for services reimbursable by Medicare. Each service is attributed an RVU
          reflecting the sum of three distinct components:

          ‚          Physician Work (Work) - compensation for the time and skill required of the
                     physician,
          ‚          Practice Expense (PE) - cost of staff time and material resources necessary to
                     perform the service, and
          ‚	         Professional Liability Insurance (PLI) - reimbursement for the malpractice
                     insurance carried by the physician.

          The value for each component is multiplied by a geographic adjustment factor called the
          Geographic Practice Cost Index (GPCI)1 and is then summed to obtain the full RVU total for a
          service. The total RVU is multiplied by a constant dollar figure, known as the conversion
          factor, to obtain the fee schedule payment amount. The conversion factor, about $36.20 in
          2002, is updated each January to account for inflation, but in a given year remains the same for
          all services and all specialties.2 Therefore, any changes to reimbursement for a service must be
          derived by changes to the RVU of that service.

Comparing Medicare Physician
Payments to Private Payers                             1                                 OEI-06-00-00570
          The formula is:




          Implemented in 1992, the RBRVS was phased in over the following 10 years. The first
          component, Physician Work, was completely integrated into the system in 1997, and the last
          component, Practice Expense, was completely integrated in 2002.

          Two additional statutory provisions govern the practical implementation of the RBRVS–
          budget neutrality to limit the impact of administrative adjustments and the sustainable growth
          rate (SGR) to control aggregate expenditures.3 In combination, the current provisions for
          budget neutrality and a sustainable growth rates create a system where RVU changes have little
          impact on aggregate expenditures. The RVUs act as a system of allocating fixed monetary
          resources rather than determining expenditures.

The 5-year Comprehensive Review of Work RVUs

          The Social Security Act, §1848(c)(2)(B)(i), requires the Secretary to adjust relative values on a
          yearly basis to account for coding and coverage changes and also to comprehensively review
          the relative values for all physician services at least once every 5 years to make any needed
          adjustments. The Centers for Medicare & Medicaid Services (CMS) completed it’s second
          5-year comprehensive review of the Work component, with the update taking effect January 1,
          2002.

          For the 5-year comprehensive review, CMS developed a system utilizing the American
          Medical Association’s (AMA’s) interdisciplinary medical expertise. Through the Federal
          Register (FR), CMS solicits requests for particular codes to be reviewed. A list of the
          requested codes is provided to the AMA’s Relative Value Updating Committee (RUC) for
          recommendations. The CMS reviews the recommendations for consistency within code
          families and identifies unwanted policy implications. In the most recent review, CMS accepted
          792 of the RUC’s 857 recommendations (92 percent).4

          The current process of soliciting codes for the review is limited, particularly in its ability to
          identify overvalued codes.5 In an effort to address these limitations, CMS initiated a contract
          with a private-sector group, Health Economic Research (HER), to develop quantitative
          methods of identifying Current Procedural Terminology (CPT) codes for review.6 CMS also
          used the Federal Register to encourage public comments on the use

Comparing Medicare Physician
Payments to Private Payers                            2                                OEI-06-00-00570
          of databases and methodologies that might lend themselves to the identification of misvalued
          procedures. Despite these attempts, no additional methods have been found. By and large, the
          seven methods proposed by the HER were discarded as not feasible or not applicable to a
          broad-scale review. The exception is an undertaking for a limited number of surgical codes.
          CMS is comparing actual time data as it appears on medical records to the time found in survey
          data collected by the AMA.

Importance of appropriate valuation

          The Medicare Payment Advisory Commission’s (MedPAC’s) 2001 Report to Congress states
          that “to help ensure beneficiaries’ access to high-quality care, Medicare payments should
          correspond to the cost efficient providers incur in furnishing this care.”7 Payments that do not
          meet this objective may promote inappropriate incentives for care or create barriers to access.
          Specifically:

          <	         Differing payment incentives could influence choices between diagnostic and/or
                     treatment plans.

          <	         Some physicians state that reductions in reimbursement will affect the number of
                     Medicare beneficiaries they treat.8, 9, 10, 11

          <	         Codes that are not increased from the 5-year comprehensive review and those that
                     were not reviewed at all are deflated. Because the current system is budget neutral,
                     what is given to one code is taken from another. Over time this code deflation could
                     contribute to access limitations for particular specialties.


METHODOLOGY

          This study uses a proprietary commercial claims database as a comparison group to identify
          procedures in Medicare’s physician fee schedule whose relative values differ substantially from
          private payers. We used several methods of comparison, but the primary identification was the
          result of a data mining process using standardized payment data.

The data

          We used MEDSTAT’s 1999 MarketScan® database as our primary source of data. This data
          includes commercial claims and encounters for over 50 different commercial plans and spans
          the calendar year 1999. We chose this data for its breadth and ability to provide complete
          claim payment information. No other database provides payment information (as opposed to
          charge information) at the claim level. For comparability purposes, the data is limited to
          physician payments within fee-for-service plans.

Comparing Medicare Physician
Payments to Private Payers                              3                               OEI-06-00-00570
          The MEDSTAT data is not nationally representative; however, it includes over 21 million
          claims spread throughout all 50 states, plus Puerto Rico and the District of Columbia. The
          greatest representations are in Georgia, Michigan, and Tennessee, cumulatively accounting for
          almost 45 percent of the records. Despite limitations for national representation, we determined
          that this data was the best suited for the needs of this study. A description of population
          characteristics is provided in Appendix A.

          Other data used include: the National Physician Fee Schedule Relative Value File (RVU File),
          the Geographic Practice Cost Indices (GPCI data), census data, and Medicare claims data.
          The RVU File and the GPCI data are the actual 1999 values used by Medicare contractors to
          determine allowable reimbursement rates for physician services and procedures.

Comparing Medicare to the private sector

          Unlike private health insurance companies, Medicare is required by law to base payments on
          resources. For this reason, comparative differences may not necessarily be indicative of errors
          in the physician fee schedule, but a reflection of a different basis for rate setting. In addition,
          population differences and the method of comparison must be taken into account.
          Consequently, we present any findings of payment differences as potential issues to be
          investigated further, rather than a need for specific change.

          Population Differences. Several difficulties exist in comparing Medicare payments to private-
          sector health insurance payments. First, by definition, Medicare is a unique and distinct
          population including only seniors over age 65 and individuals meeting certain disability
          requirements. While most individuals with health insurance are covered by an employer-based
          policy, Medicare is specifically designed to insure those not likely to be employed. Therefore,
          population differences between the two groups will be apparent in the type and frequency of
          medical claims. Further, the extent to which payment methods, e.g., global payments, and the
          underlying payment structure, e.g., resource-based, differ between the two groups are
          unknown. A third question exists with regard to market influences on pricing. While
          MEDSTAT payments are entirely subject to the market, Medicare’s resource-based system
          discounts market influences by basing prices on the costs of inputs, such as the cost of physician
          time and the cost of supplies, and by deflating the GPCI to reflect only 60 percent of market
          variation.

          Limitations of a dollar comparison. To address issues associated with a dollar comparison,
          we chose to identify procedures where the relative valuation is inconsistent between the private
          industry and Medicare. A dollar to dollar comparison between the two groups is of limited
          value. Although procedures can be ranked within each group according to price, the actual
          payments for procedures are not comparable. First, Medicare need not pay the same as
          private payers. A difference in payment rate could be the result of an intention to pay providers
          more or less than Medicare rather than a

Comparing Medicare Physician
Payments to Private Payers                             4                                OEI-06-00-00570
          different assessment of the procedure’s worth in relation to other services. There are further
          difficulties in using a straight (non-standardized) dollar-figure comparison, such as our inability
          to account for differences in management practices, e.g., capitation. Unlike the RBRVS, some
          management practices may distribute reimbursements in ways that are not related to specific
          procedures, such as per-capita payments, which pay physicians based on the number of
          individuals they treat or the diagnoses they handle. Such reimbursements are not captured in
          our data.

Data mining to identify outliers in standardized payment rates

          Standardizing payment rates. Standardizing data is a method that provides a common basis
          of comparison for things that are measured on different scales. In this instance, we want to
          compare the relative value of procedures between Medicare and private insurers. For our
          analysis, the entire allowable amount (including copayments and deductibles) for each service
          provided under a private plan was divided by the total Medicare RVU associated with the
          service.

          This standardization allows us to compare what is, in theory, a constant conversion factor
          similar to the one found in Medicare’s reimbursement formula (shown on page 2). The
          rationale for a constant conversion factor is that if we assume that Medicare’s RBRVS
          correctly values every service in terms of RVUs, then we can also assume that the entirety of
          variation in payments would be captured by the RVUs. Consequently, if we divide the
          allowable charge by the associated RVU, we would identify a constant conversion factor. The
          same conversion factor would be found regardless of the procedure chosen. If this constancy is
          not found in our data, the private sector, as demonstrated by the data, does not place relative
          value between services the same as Medicare.

          Data mining process. To identify inconsistencies in assessed value between MEDSTAT’s
          MarketScan® data and Medicare RVU data, we used a process called stepwise elimination.
          In this process, regression models were used to identify procedures and procedure groups
          whose standardized payments, or conversion factor, differ significantly from the expected value.
          Every procedure (681 procedures) and procedure group (111 procedure groups) meeting a
          minimum sample size and several other data requirements were included in the model as
          dichotomous variables. Those variables were systematically dropped in accordance with their
          significance in determining the mean conversion factor. In essence, we are identifying
          procedures in which the variation that exists in private payments is not captured by Medicare’s
          relative values. A procedure’s relative value in the private industry differs from its Medicare
          RVU to the extent that the conversion factors are different. This process was conducted
          separately on two independent data partitions. The procedures presented in this report were
          identified in both partitions.12 For additional information on the data mining process, see
          Appendix B: Data cleaning and Appendix C: Data mining methods.



Comparing Medicare Physician
Payments to Private Payers                             5                                OEI-06-00-00570
Statistical methods

          Stepwise elimination was used as an exploratory data mining technique rather than the more
          customary hypothesis testing. For this reason, tests of fit are not included. Basic statistical
          methods, including the F-test, were used to interpret the regression results. A nonresponse
          analysis is not applicable to this study. However, generalizability of the data is a concern.
          Representation is limited to those private insurance plans that have proprietary agreements with
          the MEDSTAT Group. Information on nonparticipating plans is not available.

Qualitative methods

          In order to understand potential reasons for the presence of outliers and to fully understand the
          process of assigning values and updating the fee schedule, we conducted telephone interviews
          with representatives of particular specialty societies and carrier medical directors, in-depth
          interviews with CMS staff, and a literature review of relevant government documents and both
          special interest and academic articles.

Quality standards

          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.




Comparing Medicare Physician
Payments to Private Payers                            6                                OEI-06-00-00570
                                         FINDINGS


By applying a data mining technique to a proprietary database of claims for physician services provided
in the private sector, we identified procedure codes with relative values that are substantially and
consistently different from corresponding Medicare values. Of the 681 codes that we reviewed, 217
exhibit moderate or extreme differences in relative value. Reasons for these differences are unclear and
may be attributable to errors within the relative values themselves, or to population differences.
Although the Secretary is required to review relative values for accuracy every 5 years, only 20 of the
217 codes identified were included in the most recent 5-year comprehensive review. The absence of
so many of these codes in the 2002 Review suggests that augmenting the current system with one or
more data driven methods may help to assure appropriate relative value assessments.


MANY PROCEDURE CODES ARE NOT INCLUDED IN THE CURRENT
5-YEAR COMPREHENSIVE REVIEW; A SYSTEMATIC ANALYSIS
MAY ASSIST CODE IDENTIFICATION

          Section 1848(c)(2)(B)(i) of the Social Security Act requires the Secretary to review relative
          values for all physician services no less than every 5 years to adjust for changes in medical
          practice or coding and to reflect new data on relative resources. In practice, this requirement
          means that all codes must be eligible for review.13 Decisions to include codes in the review are
          based on a nomination process, whereby CMS solicits in the Federal Register for codes to
          include in the review. The process depends almost entirely on outside information to identify
          codes that may be inappropriately valued. There is an obvious incentive for specialty groups to
          identify codes that are undervalued, but there may be less of an incentive for them to bring forth
          codes that have been overvalued.

          The data mining technique, presented in this study, provides a supplemental source of
          information that could improve CMS’ ability to identify those codes most in need of review.
          Without assurance that every code will be reviewed, it would be prudent to have a systematic
          process in place to identify the codes most in need of review.

Of the 681 Medicare codes evaluated, 217 are valued differently from private
payers; 98 appear higher and 119 appear lower than Medicare payment rates

          Our data mining process identified 217 procedures that consistently exhibit moderate or
          extreme differences in value between Medicare and the private industry. Listed in Appendix D,
          these procedures represent 30 percent of the 681 codes analyzed. Many of the approximately
          7,000 codes for reimbursable services were excluded from the review for failure to meet
          minimum sample size requirements or because data was inadequate for

Comparing Medicare Physician
Payments to Private Payers                            7                                OEI-06-00-00570
          the chosen analysis. However, the codes reviewed represent over 70 percent of Medicare
          allowed charges for physician services during the analysis year (1999).

          Of the 217 codes, 98 procedures appear to be valued higher by Medicare; the remaining 119
          appear to be valued lower by Medicare. These differences were evaluated through the private
          sector’s theoretical conversion factor for each service. With respect to Medicare’s payment of
          $34.73 per RVU (in 1999), the private data reflects a payment range of $1,065.07 per RVU
          for allergy skin tests – the highest comparative value reflected in the private data, and $0.30 for
          aspiration of a thyroid cyst – the lowest.

          In the assessed value of services, we do expect variability resulting from differences in
          professional judgment or from differing plan characteristics. However, the procedures
          presented in this report consistently showed differences that were statistically significant, and
          thus, raise questions of potential mis-valuation.

While differences in valuation are evident, the reasons are unclear and may be
attributable to errors within the RVU or to population differences

          The analysis used in this study allows us to recognize which procedures are valued differently
          between Medicare and private insurers, but is not able to pinpoint the exact source of
          difference. If our results show that Medicare values a procedure higher than the private
          industry, either Medicare is paying more than necessary or the private industry is not paying
          sufficiently, or both. Differences could reflect errors within one or more of the three RVU
          components, or could reflect market variation that is not captured in the GPCI. Further, no
          standard exists to determine whether private sector values or Medicare values are correct.
          Several possibilities exist and further investigation of these procedures will be necessary to
          determine whether RVU adjustments are indicated.

Only 20 of the 217 codes identified by our analysis were reviewed in the 5-year
comprehensive review in 2002

          The absence of many of our identified codes in the 2002 review of the Work component
          indicates that the current process of nomination does not yield the same results as our data-
          driven method. Only 26 of the identified codes were reviewed in the 1997 5-year
          comprehensive review. If differences that we identified are indicative of needed adjustment,
          many of these adjustments would not have been made by CMS.




Comparing Medicare Physician
Payments to Private Payers                             8                                 OEI-06-00-00570
                                   CONCLUSION

          In order to ensure that Medicare beneficiaries have adequate access to services and
          appropriate treatments, and physician reimbursements are commensurate with the service
          performed, every reasonable effort should be given to assessing Medicare relative values
          appropriately. Valuations that differ significantly between Medicare and the private industry
          may indicate that those resources are not adequately or not efficiently reflected. However,
          further investigation of individual differences must take into account any changes made since the
          analysis year (1999) and the difficulties inherent to a comparison between Medicare and the
          private sector.

          The current process of identifying codes that may need adjustment is dependent on the
          motivation, available time, and resources of individual physicians and physician groups to
          research and develop arguments supporting change. The process is limited, particularly with
          respect to the identification of overvalued procedures. Appropriately, the nomination of
          procedures by independent groups ensures that physicians will have a voice in the process;
          however, it is important that CMS supplement physicians’ efforts with a more systematized
          method of identification. The data mining method that we have presented in this inspection may
          provide a feasible method that CMS could utilize in cooperation with the nomination process to
          better accomplish the task of identifying codes for the 5-year comprehensive review.




Comparing Medicare Physician
Payments to Private Payers                            9                               OEI-06-00-00570
                                        ENDNOTES

1. 	      Prior to implementation, the RBRVS was critiqued for not accounting for market variation.
          GPCIs were created to capture market influences in the cost of resources. Each Medicare
          locality has its own set of GPCIs that are used to adjust each component of the RVU for
          market variation. Separate indices are used to measure cost differences for each of the three
          fee schedule components.

2.	       Initially, the conversion factor varied between specialties. This was the result of significant
          variation in payment policies of Medicare carriers. One of the requirements of the Omnibus
          Budget Reconciliation Act of 1989 was that a single conversion factor should be used for all
          physicians.

3.        SSA§1848(c)(2)(F) and SSA§1848(f)

4.        66 FR 31031 (June 8, 2001)

5.        64 FR 59380 (November 2, 1999)

6.	       Health Economics Research, “5-year review of Work Relative Value Units”; November 2,
          1999. www.hcfa.gov/medicare/wrvu-toc.htm

7.	       “Report to Congress: Medicare Payment Policy,” Medicare Payment Advisory Commission,
          March 2001: Page 21.

8. 	      “Doctor Medicare pay faces cut next year; The AMA suggests that the government adjust
          the way it calculates some figures to make the pay formula fairer.” www.amednews.com:
          Sept. 17, 2001.

9. 	      “AMA says slow economy may reduce Medicare payments,” www.kaisernetwork.org:
          Sept. 13, 2001.

10. 	     Flaherty, Timothy T., MD, “Payment cuts could mean patient access problems,”
          www.amednews.com: February 25, 2002.

11.	      Phalen, Kathleen, “Opting out: Physicians exiting Medicare program,” AMNews: June
          25, 2001.

12. 	     In simulation studies, the duplication of results in two separate partitions of the data were
          effective in ruling out erroneous identification of procedures.

13.       56 FR 59502 (November 25, 1991)




Comparing Medicare Physician
Payments to Private Payers                            10                                OEI-06-00-00570
                                                                                              Appendix A


                                        Data description


Demographics

The demographic information below describes the percent of line item claims in the MEDSTAT data
that fit individual characteristics.

                   Age Range                          Sex                     Regional Distribution

         0-17                  13.6%    Male                47.4%           Northeast         16.2%

         18-34                 24.2%    Female              52.6%           North Central     25.3%

         35-44                 18.2%                                        South             40.9%

         45-54                 21.1%                                        West              15.2%

         55-64                 22.7%                                        Unknown            2.4%

         65 and older           0.2%



Source of Data

MEDSTAT data are based on a selection of employer’s health benefit packages. Although specific
information about companies is not available, the industry with a percentage of claim representation is
below. Claims may represent the spouse or dependent of an employee associated with a particular
industry.



     Oil & Gas Extraction, Mining              3.8%         Retail Trade                                 0.3%

     Manufacturing, Durable Goods          21.7%            Finance, Insurance, Real Estate              5.9%

     Manufacturing, Nondurable Goods       30.7%            Services                                     6.8%

     Transportation, Communications,       23.5%            Missing/Unknown                              7.4%
     Utilities




Comparing Medicare Physician
Payments to Private Payers                             11                                         OEI-06-00-00570
                                                                                      Appendix A

Plan Payment Information

The amount paid may vary within a plan when a provider network is in place. For almost half the data,
we do not know if the service was provided within or outside of a plan network, or if a network exists
at all. All remaining claims were paid ‘in plan’ with the exception 7.1 percent paid ‘out of plan.’
Different plan types were represented in our data as indicated below.




                               Basic/Major Medical                        4.4%

                               Comprehensive                             40.0%

                               Exclusive Provider Organization (EPO)      2.7%
                               Point Of Service (POS)                     8.2%

                               Preferred Provider Organization (PPO)     44.1%

                               Health Maintenance Organization (HMO) -      0%
                               excluded

                               POS with Capitation - excluded               0%

                               Missing/Unknown                            0.5%




Comparing Medicare Physician
Payments to Private Payers                               12                                OEI-06-00-00570
                                                                                                         Appendix B



                                                 Data cleaning

The proprietary claims data used in this study is subject to all of the problems that are inherent to
administrative medical claims data. We conducted broad validity checks to determine the level of
accuracy of the data. There was a need for significant ‘data cleaning’ of the critical data elements prior
to analysis. We found that it was necessary to drop large segments of the data for one or more of the
reasons described below. As a result, we significantly reduced our number of observations. The
process began with 21 million claims divided into three partitions of approximately 7 million each. Line
item deletions reduced each partition by almost 40 percent. Although the reduction was considerable,
we believe that these modifications were necessary to maintain the integrity of the data and subsequent
analysis. Additionally, we found some data that needed adjustment or was unsuitable for review.

Our data cleaning resulted in the following:

1.        Deletion of services inconsistent with the needs of the analysis
          •	    Anesthesia services for which Medicare provides reimbursement using a separate
                conversion factor
          •	    Procedure codes that required modifiers to determine the RVUs attributed to the
                service (modifier information was not available through MEDSTAT)

2.        Deletion of data flaws
          •     Critical data elements were missing or invalid
          •     Orphan claims1 with payments equal to zero or less
          •	    Outliers (defined as line items having a payment amount that were beyond three
                standard deviations from the mean of the service)

3.	       Deletion of services that are currently incompatible with Medicare’s
          Physician Fee Schedule
          •     Procedure codes that are not active
          •     Procedure codes that are not covered under the Medicare Physician Fee Schedule
          •     Procedure codes that Medicare pays only as a technical component
          •     Procedure codes in which payment is not based on the relative value scale
          •     Procedure codes with a relative value of zero

          1
            Orphan claims are line item adjustments that MEDSTAT could not match to the appropriate claim.
          MEDSTAT advises that these claims be included in aggregate or summary statistics, but need not be
          included when looking at individual line items.


Comparing Medicare Physician
Payments to Private Payers                                   13                                               OEI-06-00-00570
                                                                                            Appendix B



4.	       Procedures represented in the MEDSTAT data with fewer than 100 claims
          remain in the data, but were not reviewed
          Similar to the second partition, the first partition contained claims for 4,589 different procedure
          codes after line item deletions. However, only 681 procedure codes had a sufficient number of
          claims to be eligible for the review.

5. 	      Differential use of the units variable
          In particular cases, the units variable is meaningful and can affect the calculated averages. For
          this reason, any procedure where more than 5 percent of the billing reflected a unit of greater
          than one was judged for legitimacy of multiple units. The determination was made with the
          assistance of a Medicare Contractor Medical Director and also a Private Health Insurance
          Medical Director.




Comparing Medicare Physician
Payments to Private Payers                            14                                         OEI-06-00-00570
                                                                                                         Appendix C


                                           Data mining methods


Theory of Data Mining

          As a relatively new field in analytics, data mining allows us to explore the wealth of data that
          now exists in almost every industry conceivable. Generally speaking, data mining is the
          utilization of a number of tools, including statistics, artificial intelligence and pattern recognition,
          to better understand and describe very large data sets. Data mining is not hypothesis testing, a
          method that uses data to confirm or reject hypotheses. Rather, it uses data to develop
          hypotheses in the absence of preconceived theories. With this distinction comes an increased
          probability of Type I error, i.e., an erroneous finding. However, utilized in its appropriate
          context, data mining has the ability to find valid patterns and inconsistencies that may not
          otherwise have been noticed.

Focus

          For this particular study, we sought to identify inconsistencies between Medicare and the
          private industry in the value of services relative to other services from the same payer group.
          Understanding that absolute differences in reimbursement rates have interpretation problems,
          we determined that evaluating payments per Medicare-RVU allowed us to compare
          reimbursement rates among different procedures, thus eliminating the need to make a direct
          comparison between Medicare and private payments. We are looking at private payments in
          the context of Medicare RVUs; procedures that do not fit that context smoothly in relation to
          other procedures may have been evaluated differently in Medicare than in the private industry.

Model

          To identify procedures that appear to be evaluated differently between the two sectors, we
          used two data mining techniques. These techniques were validated through extensive simulation
          testing. The techniques include stepwise elimination of procedures through linear regression and
          a requirement for confirmation, whereby a procedure must be identified in two independent
          partitions.

          For the regression model, the theoretical conversion factor is the dependent variable.
          Independent variables include a dummy (or dichotomous) variable for each individual
          procedure (N = 681) and procedure group (N = 111)1 meeting our requirements, as well


          1
           Procedure groups are groups of codes representing similar procedures. These groups were defined by
          MEDSTAT.
Comparing Medicare Physician

Payments to Private Payers                                   15                                                 OEI-06-00-00570

                                                                                                                  Appendix C

          as controls – for the health care plan, rural/urban, and specialist/generalist. We did not control
          for geographic location because the GPCI was adjusted to reflect the full market variation in
          each Medicare locality.2 The initial regression model was the same in both partitions (see
          below).

                     ì= $0 + [$1 (Xproc1) + $2 (Xproc2) + ... +$681 (Xproc681) ] + [$682 (Xgroup1)
                        + $683 (Xgroup2) + ... + $792 (Xgroup111) ] + [$793 (Xplan1) + $794 (Xplan2) + ...
                        + $839 (Xplan47) ] + $840 (Xspecialist) + $841 (X%urban2) + ,

                     ì = (payment for claimi / calculated RVU for procedurei)

          The regression was repeated more than 35 times, systematically dropping the independent
          variables (procedures and procedure groups) that appeared least likely to have a significant
          influence on the dependent variable (the theoretical conversion factor). After each iteration, we
          eliminated a pre-determined number of independent variables (i.e., procedures) exhibiting the
          largest p-value. The number of variables eliminated from each iteration was related to the
          number of variables remaining in the model, specifically twice the hundredth place of the
          number of independent variables. The regression sequence ceased at the point when all
          procedures and procedure groups remaining had a degree of significance that exceeded our
          threshold of p (where p is solved from: (1-p)# variables = 0.95).3 A further significance level was
          determined for the combined effect of the procedure and the procedure group on the
          dependent variable.4 Procedures with a combined significance of p (where p is solved from:
          (1-p) # of F tests = 0.95) are considered outliers in the distribution of procedures. The elimination
          process was repeated on a second randomly assigned partition of the MEDSTAT data.
          (Claims were randomly assigned into one of three independent partitions.) The results of the




          2
            The GPCI, by design, reflects only about 60 percent of market variation. Policy makers believed that the
          Physician Work component of the RVU, reflecting the time and skill required of the physician, is not
          significantly affected by geographic variation. The CMS provided us with the formula used to squash the
          variation, so that we could adjust our data to fully reflect geographic variation as measured through the
          GPCIs.

          3
            In data mining, the conventional level of significance does not apply. “Lovell has suggested that if there
          are c candidate regressors out of which k are finally selected on the basis of data mining, then the true level
          of significance is related to the nominal level of significance as follows: alpha*=1-(1-alpha)c/k or
          approximately alpha*=(c/k)alpha. For this reason we kept our determining level of significance extremely
          conservative. So that variables would remain significant.” (Source: Guijarati, Damodar N., Basic
          Econometrics, Third Ed., McGraw-Hill Inc; New York: 1995. P.460-461.)

          4
            An F-test using Restricted Least Squares (Testing for Linear Equality Restrictions) was used to determine
          the significance of the combined beta coefficients for procedure and procedure group.


Comparing Medicare Physician
Payments to Private Payers                                       16                                                     OEI-06-00-00570
                                                                                            Appendix C

          two stepwise regressions were compared. Only procedures found to be significant in both
          partitions are reported.

          As mentioned, the simulation studies provide support for the accuracy of our findings. Artificial
          data were created with the same overall structure of the original data. Simulations were
          conducted in a number of ways. First, data were created with no deviant procedures. Hence,
          our data mining process should have no remaining variables, or procedures. Additional data
          was created with manufactured outlier procedures. In those cases, our data mining process
          should have identified the appropriate outliers. We found that the step-wise regression did yield
          some erroneous results, but that the requirement of findings to be in two independent partitions
          eliminated this problem. To further minimize the incidence of erroneous findings, we used
          exceptionally small p-values. The combination of these two techniques used was successful in
          eliminating erroneous results.

Interpretation

          Identified codes, i.e., codes that remained as variables throughout both stepwise regressions,
          are the focus of our study. We suggest not that the values are incorrect, but that differences
          noted give cause for further study. Further, we suggest that a data-driven method is a feasible
          option in identifying codes for the 5-year review. However, the particular codes identified
          should be considered within the appropriate context. As these codes are the results of a data
          mining process, i.e., not standard statistical analysis, no confidence intervals or p-values are
          reported. Statistical tests of significance are used in the data mining process, but cannot be
          interpreted as results, for there was no defined hypotheses to test; rather our process identified
          outlier procedures. These procedures are outliers in the sense that per Medicare RVU
          payment is consistently different from the average procedure.

          Even though the construct of statistics does not uniformly apply, our analysis does use statistical
          methods. Those methods are susceptible to violations of statistical assumptions. In particular,
          the regression analysis included multicollinear variables, such that individual procedures are
          subsets of their respective procedure groups and potentially heteroskedastic variances resulting
          from any correlation between the plan variables and the residual error term. These limitations
          were known and considered before analysis began.

          Multicollinearity: We chose to include both procedures and procedure groups so that we
          might be able to identify differences affecting a whole family of codes as well as individual
          procedures.




Comparing Medicare Physician
Payments to Private Payers                            17                                         OEI-06-00-00570
                                                                                         Appendix C

          Heteroskedasticity: The variance of our dependent variable may be influenced by the plan
          variable. A dummy variable was included for each plan present in our data, however, this does
          not capture interactions between plans and individual procedures. We chose not to include
          interaction variables because our model might have been compromised by a degrees of
          freedom problem, and also because the processing of such a voluminous model would have
          been too difficult for parameters of our study. A simulation study is underway to determine the
          extent to which heteroskedastic variances may have affected our results. Early indications
          suggest that heteroskedasticity did not influence our results.




Comparing Medicare Physician
Payments to Private Payers                          18                                        OEI-06-00-00570
                                                                                                         Appendix D


                                            Valuation differences


The codes identified in our study as being valued differently between Medicare and the private sector

are listed in this Appendix. These services’ relative values for the private insurers differ substantially

from those of Medicare’s RBRVS. Statistics are provided to give contextual information that may

assist the reader in interpreting the extent of difference.

.

                                      Variable Names and Definitions
                         CPT™       Current Procedural Terminology Code (used for billing purposes)

                  Description       Short description of the CPT™ code

                               N	   Frequency of the procedure in the Commercial Claims and
                                    Encounters data.

                           Beta	    Combined beta coefficient (from the step-wise regression) for the
                                    procedure and procedure group variables. Reflects the procedure’s
                                    impact on the theoretical conversion factor.

                        Index       The median of an index created for each procedure describing what
                       Median       percent of the Medicare Physician Fee Schedule was actually paid
                                    by the private industry, as represented in our data.

                     Medicare       The dollars (in thousands) allowed by Medicare in 1999 for each
                      Volume        service (includes deductibles and co-payments paid by the
                                    beneficiary). The total amount allowed for 1999 was $44.7 billion.




The combined beta coefficient (Beta) may be interpreted as an addition or subtraction (as indicated by
positive or negative value) to the average theoretical conversion factor. Recall that the conversion
factor is the number you would multiply by the RVU to determine the total payment amount. The
expected value is the average conversion factor for all services, which was found to be $34.07. This
means that the Beta values would substantially add to or subtract from this number. For example, the
Beta for CPT™ 10040 (-10.66) implies that the theoretical conversion factor for acne surgery is
$23.41 ($34.07 - $10.66). If the RVU used for standardization reflected the entire variation between
services, the payment for the service would have been the RVU multiplied by $34.07. As it stands, the
payment for the service is the RVU multiplied by $23.41.




Comparing Medicare Physician
Payments to Private Payers                                   19                                             OEI-06-00-00570
                                                                                     Appendix D


                                                                                       Medicare
                                                                           Index
      CPT™                      Description            N         Beta
                                                                           Median
                                                                                       Volume
                                                                                        (in $1,000s)



     10040         Acne Surgery                         6776     -10.66     62.05%            $1,404

     11042         Cleansing of Skin/Tissue             1060        9.9    114.04%          $27,748

     11100         Biopsy of Skin Lesion               11171      -4.77     89.74%          $66,232

     11200         Removal of Skin Tag                  4060        -4.6    86.06%            $4,837

     11300         Shave Skin Lesion                    2511      -7.11     75.96%            $2,410

     11400         Removal of Skin Lesion               2381      -9.59     66.43%            $3,301

     11401                                              3313      -8.38     73.76%            $6,971

     11402                                              2391      -4.26     87.70%            $9,177

     11421                                              1264      -6.33     80.46%            $3,824

     11440                                              1259      -6.77     82.57%            $5,238

     11719         Trim Nail(s)                            294   -17.02     34.88%            $9,969

     11732         Remove Additional Nail Plate            411     7.52    110.62%            $3,396

     11750         Removal of Nail Bed                  3733       8.72    131.44%          $28,863

     11900         Injection into Skin Lesion           2764      -5.22     81.83%            $2,581

     12031         Layer Closure of Wound(s)               693    -6.64     83.21%            $2,509

     17000         Destruction of Facial Lesion        36014      -3.79     84.46%        $130,619

     17003         Destroy Lesions, 2-14               21042      15.04     99.55%        $137,151

     17110         Destruction of Skin Lesions          3383      -6.82     77.85%            $2,814

     17340         Cryotherapy of Skin                     953   -17.03     58.31%               $829

     19100         Biopsy of Breast                        732    17.36    103.85%            $2,706

     19290         Place Needle Wire, Breast            1196      10.67    113.31%            $4,921

     20550         Inject Tendon/Ligament/Cyst         11520      -7.93     74.15%          $50,316

     20600         Drain/Inject Joint/Bursa             4353      -6.39     74.85%          $16,302

     20605                                              5590      -8.38     68.61%          $20,232

     20610                                             13770      -9.13     79.12%        $133,139

     21320         Treatment of Nose Fracture              108    19.81    147.38%               $197


Comparing Medicare Physician

Payments to Private Payers                        20                                    OEI-06-00-00570

                                                                                     Appendix D


                                                                                       Medicare
                                                                           Index
      CPT™                      Description            N         Beta
                                                                           Median
                                                                                       Volume
                                                                                        (in $1,000s)



     29065         Application of Long Arm Cast            334   -15.46     56.39%            $1,041

     29075         Application of Forearm Cast         1478      -17.27     47.99%            $4,292

     29085         Apply Hand/Wrist Cast                   160   -16.57     48.42%               $288

     29125         Apply Forearm Splint                    811      -8.3    61.31%            $1,500

     29405         Apply Short Leg Cast                1073      -14.29     65.34%            $3,272

     29425                                                 956   -12.55     58.19%            $3,221

     29540         Strapping of Ankle                  2545       -6.08     87.97%            $5,028

     29880         Knee Arthroscopy/Surgery                505    13.09    140.43%          $24,381

     29881                                             2328        7.91    118.07%          $38,313

     29888                                                 694     7.03    112.66%               $822

     30130         Removal of Turbinate Bones              304   -10.05     60.64%               $676

     31254         Revision of Ethmoid Sinus               357     15.8    147.45%            $2,024

     31255         Removal of Ethnoid Sinus                907    21.16    154.11%          $10,402

     31256         Exploration Maxillary Sinus             714    12.58    128.28%            $2,408

     31575         Diagnostic Laryngoscopy             2460        6.16    114.22%          $31,208

     36000         Place Needle in Vein                1273       17.03    133.59%            $1,644

     36005         Injection, venography                   171    22.16    146.93%            $2,895

     36410         Drawing Blood                       1414       -5.78     65.78%            $3,666


     36425         Drawing Blood                           116   -33.15      8.87%               $296

     36489         Insertion of Catheter, Vein             453    21.93    154.35%          $54,502

     42820         Remove Tonsils and Adenoids         1054       17.41    160.99%                     $5

     45300         Proctosigmoidoscopy                     931   -15.73     49.40%            $5,332

     45330         Sigmoidoscopy, Diagnostic           7845       -3.56     70.57%          $42,585

     45384         Colonoscopy                         1541       21.58    178.26%          $77,739

     46083         Incise External Hemorrhoid              177   -13.96     64.19%               $288

     50590         Fragmenting of Kidney Stone         1050       11.96    149.77%          $23,062
Comparing Medicare Physician

Payments to Private Payers                        21                                    OEI-06-00-00570

                                                                                    Appendix D


                                                                                      Medicare
                                                                          Index
      CPT™                      Description            N         Beta
                                                                          Median
                                                                                      Volume
                                                                                       (in $1,000s)



     51700         Irrigation of Bladder                   445   -21.45    44.89%            $3,240

     51720         Treatment of Bladder Lesion             378   -12.60    62.40%          $17,684

     52000         Cystoscopy                          3334        4.94   112.29%        $107,817

     53660         Dilation of Urethra                     228   -21.29    42.52%            $2,222

     53661                                                 367   -23.35    36.65%            $3,858

     53670         Insert Urinary Catheter             1237      -24.88    33.16%            $6,718

     54161         Circumcision                            279    14.19   153.56%            $2,728

     56501         Destruction, Vulva Lesion(s)            335    -11.2    65.92%               $255

     57452         Examination of Vagina                   943     7.08   114.72%            $1,075

     57454         Vagina Examination & Biopsy         3617       15.64   141.06%            $3,111

     57460         Cervix Excision                         347    32.86   192.37%               $408

     57522         Conization of Cervix                    377    24.18   151.27%               $721

     58120         Dilation and Curettage (D&C)            935    10.17   116.95%            $7,387

     59425         Antepartum Care Only                    573   -21.44    17.22%               $146

     59426         Antepartum Care Only                1338       -9.76    82.48%               $252

     59430         Care After Delivery                     602    -6.45    82.27%                 $43

     60001         Aspirate/Inject Thyroid Cyst            242   -33.77     6.85%               $129

     62275         Inject Spinal Anesthetic                185    34.09   159.15%            $4,983

     62278                                                 730    22.57   153.63%          $21,919

     62279                                                 277    56.68   228.44%          $10,316

     62284         Injection for Myelogram             1238       33.87   202.28%          $15,492

     62289         Injection into Spinal Canal         2608       20.71   159.76%          $78,602

     64443         Injection for Nerve Block               790    19.18   132.45%          $17,781

     64450                                             1295       -6.02    74.23%            $7,723

     64550         Apply Neurostimulator                   350    22.97   170.08%               $384

     64721         Carpal Tunnel Surgery               1074        8.82   117.99%          $30,164


Comparing Medicare Physician

Payments to Private Payers                        22                                   OEI-06-00-00570

                                                                                       Appendix D


                                                                                         Medicare
                                                                             Index
      CPT™                      Description            N         Beta
                                                                             Median
                                                                                         Volume
                                                                                          (in $1,000s)



     66761         Revision of Iris                        189    12.77      137.83%          $19,175

     66821         Lasering, Secondary Cataract            562    19.75      167.52%        $198,749

     66984         Remove Cataract, Insert Lens        2656        3.37      118.20%      $1,854,895

     67210         Treatment of Retinal Lesion             721     7.84      139.16%        $111,761

     67800         Remove Eyelid Lesion                    405   -17.29       51.81%            $2,711

     68761         Close Tear Duct Opening                 907   -16.74       51.84%          $18,322

     69210         Remove Impacted Ear Wax             4445      -11.56       64.90%          $31,396

     69421         Incision of Eardrum                     145    29.18      188.88%               $131

     69424         Remove Ventilating Tube                 116    31.96      127.57%                $75

     69436         Create Eardrum Opening              3693        14.7      148.38%            $1,960

     69990         Microsurgery Add-on                     366    27.17      175.38%            $5,878

     77263         Radiation Therapy Planning          1004       16.19      129.89%          $38,249

     77336         Radiation Physics Consult           1969       -14.3       60.28%          $44,926

     77408         Radiation Treatment Delivery            132    32.62      117.55%            $5,309

     77413                                             4389        3.65      121.32%          $93,484

     77414                                             1133         5.3      122.54%          $40,010

     77416                                                 492     9.08      121.32%          $10,224

     77419         Weekly Radiation Therapy                262          46   242.31%          $18,071

     77420                                                 273    53.28      288.17%            $7,313

     77425                                                 252    53.11      241.52%          $11,024

     77430                                             4748       35.42      236.43%        $189,271

     80500         Lab Pathology Consultation              455    12.76      148.91%            $1,326

     85102         Bone Marrow Biopsy                      402   -10.91       64.85%          $10,038

     86580         TB Intradermal Test                 6925      -10.27       68.29%            $1,010

     86585         TB Tine Test                        2298       -9.96       70.62%               $189

     88141         Cytopath, C/V, Interpret            84.20        -4.4      94.48%            $3,634


Comparing Medicare Physician

Payments to Private Payers                        23                                      OEI-06-00-00570

                                                                                      Appendix D


                                                                                        Medicare
                                                                            Index
      CPT™                      Description             N         Beta
                                                                            Median
                                                                                        Volume
                                                                                         (in $1,000s)



     88329         Pathology Consult in Surgery             407     18.3    146.70%            $1,914

     90781         IV Infusion, Additional Hour          3160      13.85    123.97%          $15,404

     90782         Injection (SC)/(IM)                  30039       6.56    127.64%            $7,095

     90784         Injection (IV)                        3177       3.25    116.40%            $1,150

     90788         Injection of Antibiotic               3112       7.01    130.54%                 $62

     90801         Psychiatric Interview                 7182      -7.71     79.09%        $111,387

     90804         PSYTX, Office, 20-30 Min.             2182      -6.73     89.17%          $31,838

     90805         PSYTX, Off, 20-30 Min w/E&M          15060      -4.81     85.17%          $83,314

     90806         PSYTX, Off, 45-50 Min                23072      -5.34     84.46%        $281,209

     90807         PSYTX, Off, 45-50 Min w/E&M          18329      -3.29     90.03%        $105,222

     90847         Special Family Therapy                1920        -7.8    77.86%            $8,280

     90862         Medication Management                30111      -2.73     97.31%        $196,791

     90870         Electroconvulsive Therapy                538     23.1    146.50%          $13,220

     90925         ESRD Related Services, Day            1952     147.56    133.65%          $79,236

     90937         Hemodialysis, Repeated Eval.             105    19.61    113.74%          $26,561

     92002         Eye Exam, New Patient                 1649      -9.44     76.58%          $13,585

     92004                                               6373     -11.54     69.83%        $136,603

     92012         Eye Exam, Established Patient        10760     -15.22     59.71%        $238,022

     92014                                              13915     -11.52     71.82%        $431,473

     92020         Special Eye Evaluation                   938    -9.58     74.63%          $13,013

     92225         Special Eye Exam, Initial             1678     -11.17     63.66%          $29,074

     92226         Special Eye Exam, Subseq              1996     -12.52     56.96%          $49,906

     92504         Ear Microscopy Examination               886   -13.58     63.14%            $2,335

     92552         Pure Tone Audiometry, Air             2416     -10.07     71.86%            $1,550

     92553         Audiometry, Air & Bone                   826   -10.44     71.51%            $1,702

     92555         Speech Threshold Audiometry              562   -10.13     74.51%               $122


Comparing Medicare Physician

Payments to Private Payers                         24                                    OEI-06-00-00570

                                                                                       Appendix D


                                                                                         Medicare
                                                                            Index
      CPT™                      Description             N         Beta
                                                                            Median
                                                                                         Volume
                                                                                          (in $1,000s)



     92556         Speech Audiometry, Complete              387    -10.10     76.67%               $553

     92557         Comprehensive Hearing Test            5393      -10.34     71.96%          $36,788

     92567         Tympanometry                         10426      -11.34     69.93%          $13,189

     92568         Acoustic Reflex Testing               1563      -10.40     74.51%            $3,824

     93000         Electrocardiogram, Complete          53768       -1.72     88.92%        $260,332

     93010         Electrocardiogram Report             20110       14.80    123.24%        $175,713

     93016         Cardiovascular Stress Test            5406       14.64    120.38%          $26,600

     93018         Cardiovascular Stress Test            6810       34.08    135.89%          $24,606

     93041         Rhythm ECG, Tracing                      161     46.39    127.68%            $1,078

     93042         Rhythm ECG, Report                    2097       23.70    167.88%          $14,123

     93227         ECG Monitor/Review, 24 hrs            1107       23.43    137.93%          $10,670

     93233         ECG Monitor/Review, 24 hrs               235     26.54    146.72%            $4,102

     93539         Injection, Cardiac Cath                  190     25.07    168.13%            $4,211

     93540                                                  206     19.59    172.81%            $6,018

     93543         Injection for Heart X-Rays            2372       35.49    163.72%          $20,708

     93544         Injection for Aortography                202     49.13    178.22%            $2,469

     93545         Injection for Coronary X-Rays         2546       44.44    194.76%          $34,958

     93798         Cardiac Rehab/Monitor                 1616        8.89    144.86%            $9,304

     94668         Chest Wall Manipulation                  186     50.35    175.24%               $201

     94760         Measure Blood Oxygen Level            7613       -3.19     79.31%          $16,911

     95004         Allergy Skin Tests                    6378     1031.06   2869.69%          $13,852
                                                                                   %

     95010         Sensitivity Skin Tests                   153    143.13    315.71%         $370424

     95015                                                  242    121.88    268.39%               $563

     95024         Allergy Skin Tests                    5157      406.57    954.58%            $9,722

     95027         Skin End Point Titration                 171    148.24     85.13%               $301

     95028         Allergy Skin Tests                       181    327.63    656.18%            $1,817
Comparing Medicare Physician

Payments to Private Payers                         25                                     OEI-06-00-00570

                                                                                     Appendix D


                                                                                       Medicare
                                                                           Index
      CPT™                      Description             N         Beta
                                                                           Median
                                                                                       Volume
                                                                                        (in $1,000s)



     95044         Allergy Patch Tests                      571   154.48    63.36%            $2,481

     95115         Immunotherapy, One Injection         83613     -16.15    57.91%          $19,867

     95117         Immunotherapy Injections             88880     -14.67    59.21%          $23,785

     95144         Antigen Therapy Services              1961      95.58   400.19%            $3,016

     95147                                                  213    43.17   126.75%               $304

     95148                                                  135    48.26   120.11%               $244

     95165                                              29245     203.57   590.67%          $39,070

     95851         Range of Motion Measurements             716    12.06   106.26%            $1,329

     96400         Chemotherapy, (SC)/(IM)               1117      13.11   112.66%            $3,955

     96408         Chemotherapy, Push Techniques         4828      -3.38    92.95%          $25,300

     96412         Chemotherapy, Infusion Method         4897       5.88    99.17%          $49,708

     96900         Ultraviolet Light Therapy                858    -8.96    70.88%            $1,075

     96910         Photochemotherapy with UV-B           1869      -9.78    67.57%            $3,245

     96912         Photochemotherapy with UV-A           1713      -7.98    74.29%            $2,763

     97001         PT Evaluation                         2043       4.17   107.29%          $25,121

     97002         PT Re-Evaluation                         699    11.28   139.01%            $2,766

     97012         Mechanical Traction Therapy           1813       7.22   116.28%            $3,848

     97014         Electric Stimulation Therapy          6823       9.47   118.47%          $26,831

     97022         Whirlpool Therapy                     1562       8.12   116.72%            $3,003

     97032         Electrical Stimulation                3821       8.09   110.13%          $21,704

     97033         Electric Current Therapy              1095      17.14   151.31%               $985

     97035         Ultrasound Therapy                   10195       8.21   110.01%          $41,306

     97112         Neuromuscular Re-Education            3178       8.47   117.30%          $20,806

     97113         Aquatic Therapy/Exercises                465    41.02   203.42%            $6,296

     97116         Gait Training Therapy                    443    14.07   141.19%            $5,512

     97124         Massage Therapy                       2447      10.36   124.67%          $33,919


Comparing Medicare Physician

Payments to Private Payers                         26                                   OEI-06-00-00570

                                                                                        Appendix D


                                                                                          Medicare
                                                                              Index
      CPT™                      Description               N         Beta
                                                                              Median
                                                                                          Volume
                                                                                           (in $1,000s)



     97140         Manual Therapy                          9037      28.54    173.71%          $40,579

     97530         Kinetic Therapy                         6698      20.84    144.59%          $49,135

     97703         Prosthetic Checkout                        211    71.65    202.86%                 $65

     97750         Physical Performance Test                  296    18.82    145.75%            $1,897

     97770         Cognitive Skills Development               142    78.39    279.50%               $881

     99183         Hyperbaric Oxygen Therapy                  442    47.64    155.12%          $19,566

     99195         Phlebotomy                                 735   -11.47     71.89%               $941

     99201         Office/Outpatient Visit, New           20043      -8.46     82.26%          $22,976

     99202                                                78872      -9.32     76.57%        $151,700

     99203                                                90193      -9.61     75.66%        $299,082

     99204                                                39612      -9.07     76.48%        $287,602

     99205                                                17179      -8.14     79.53%        $160,215

     99211         Office/Outpatient Visit, Est.          73020     -11.66     67.99%        $139,113

     99212                                               431696      -8.02     81.68%        $845,031

     99213                                              1002696      -6.74     81.84%      $3,611,097

     99214                                               270251        -7.8    77.89%      $2,219,555

     99215         Office/Outpatient Visit, Est.          60972      -6.16     83.73%        $572,393

     99231         Subsequent Hospital Care                4122       7.07    114.96%        $836,347

     99232                                                 5815       3.83    105.53%      $1,962,425

     99241         Office Consultation                     6759      -5.09     86.69%          $23,416

     99242                                                17564      -6.52     83.83%        $104,737

     99243                                                32037      -6.24     83.17%        $289,705

     99244                                                29912      -6.39     84.74%        $452,636

     99245                                                12572      -5.64     85.41%        $267,320

     99281         Emergency Dept. Visit                   2600      17.67    153.51%            $6,106

     99282                                                17006      15.75    139.30%          $49,780


Comparing Medicare Physician

Payments to Private Payers                         27                                      OEI-06-00-00570

                                                                                      Appendix D


                                                                                        Medicare
                                                                            Index
     CPT™                      Description               N         Beta
                                                                            Median
                                                                                        Volume
                                                                                         (in $1,000s)



     99283                                               44568       9.77   134.93%        $279,184

     99284                                               21491       9.91   135.33%        $425,949

     99285                                                6531       8.77   118.30%        $462,377

     99292         Critical Care, Add’l 30 Min.              152    19.20   128.27%          $26,845

     99433         Normal Newborn Care, Hospital             940     7.51   122.42%                     $1

     A4263         Permanent Tear Duct Plug*                 279    29.86   162.74%            $3,038

     A4550         Surgical Trays*                        7016      30.41   149.25%            $4,647

     G0101         CA Screen; Pelvic/Breast Exam          6388      42.36   219.11%          $10,097

     Q0091         Scrn Pap Smear Obtain Prep&Con            574   -26.67    22.93%            $8,284


    *Codes now bundled with primary service for global payment.




Comparing Medicare Physician
Payments to Private Payers                          28                                   OEI-06-00-00570
                               ACKNOWLEDGMENTS


This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for
Evaluation and Inspections in Dallas, TX. Inspections staff who contributed include:

DALLAS                                                 HEADQUARTERS


Amy Ashcraft, Project Leader                           Stephanie Lattin, Program Specialist

Kevin Golladay, Team Leader


SAN FRANCISCO

Robert Gibbons




Comparing Medicare Physician
Payments to Private Payers                        29                                        OEI-06-00-00570
